Report No. D-2008-103        June 13, 2008




   Memorandum Report on Internal Controls
      Over the U.S. Special Operations
       Command Military Equipment
         Baseline Valuation Effort
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604- 8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ASDS                          Advanced SEAL Delivery System
CAMS-ME                       Capital Asset Management System-Military Equipment
MH                            Multi-Mission Helicopter
MK V SOC                      Mark V Special Operations Craft
MTPS                          Mission Training and Planning Systems
OIG                           Office of Inspector General
P&EPO                         Property and Equipment Policy Office
SAHRV                         Semi-Autonomous Hydrographic Reconnaissance Vehicle
SFFAS                         Statement of Federal Financial Accounting Standards
SOCOM                         Special Operations Command
SOF                           Special Operations Forces
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704




                                                                           June 13,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               COMMANDER, U.S. SPECIAL OPERATIONS COMMAND



SUBJECT: Memorandum Report on Internal Controls Over the U.S. Special Operations
         Command Military Equipment Baseline Valuation Effort (Report No. D-
         2008-103)

        Weare providing this report for information and use. No written response to this
report was required. Therefore, we are publishing this report in final form.

        We appreciate the courtesies extended to the staff. Please direct questions to
Ms. Alice F. Carey at (703) 601-5864 or Ms. Lidet K. Negash at (703) 601-5378. If you
desire, we will provide a formal briefing on the results.




                                p~ ~.!J1~
                               Patricia A. Marsh, CPA
                             Assistant Inspector General
                          Defense Financial Auditing Service
                          Report No. D-2008-103 (Project No. D2007-D000FH-0188.000)
                                                 June 13, 2008

                    Results in Brief: Internal Controls Over the
                    U.S. Special Operations Command Military
                    Equipment Baseline Valuation Effort
                                                                       •   waivers that were appropriately granted
What We Did                                                                and supported, and
The Property and Equipment Policy Office                               •   a complete universe of SOCOM military
(P&EPO) in the Office of the Under Secretary                               equipment programs.
of Defense for Acquisition, Technology, and
Logistics requested that the DoD Office of                          As a result, SOCOM cannot ensure the accuracy
Inspector General conduct audits of the military                    of the military equipment net book value of
equipment baseline valuation as of                                  $4.5 billion presented in its September 30, 2006,
September 30, 2006. The overall objective was                       financial statements.
to evaluate the reliability of the internal controls
over valuation and rights and obligations                           Audit Conclusions
assertions for the military equipment baseline.                     The internal controls over valuation, rights and
The objective also included a limited evaluation                    obligations, and completeness of the universe of
of the completeness assertion. * This report                        programs for the SOCOM September 30, 2006,
addresses the P&EPO and Special Operations                          military equipment baseline did not result in
Command’s (SOCOM) internal controls over                            reasonable estimates of the historical costs of
the SOCOM universe of military equipment.                           the equipment. This report identifies
This report is the second in a series. The final                    deficiencies in the procedures and controls used.
report will summarize all findings for the series                   Until the identified internal control deficiencies
and recommend corrective actions, as                                are corrected, there is a risk that a material
appropriate.                                                        misstatement in SOCOM’s financial statements
                                                                    could occur and not be detected.
What We Found
The P&EPO and SOCOM internal controls over
the valuation, rights and obligations, and
completeness of the universe of programs for
SOCOM’s military equipment baseline were not
effective. Specifically, the internal controls did
not ensure that the SOCOM military equipment
baseline included:
    • values based on proper documentation
        and appropriate methodologies,
    • capitalization dates reported in
        accordance with supporting
        documentation,                                                     Special Operations Forces C-130


*
    Because of previously identified deficiencies over end
    item quantities, the P&EPO requested the audit team
    evaluate only the internal controls over the completeness
    of the SOCOM universe of programs.


                                                                i
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                               1
       Background                                                               1
       Review of Internal Controls                                              2

Internal Controls Over the Valuation, Rights and Obligations, and Completeness of
the Universe of Programs                                                         3

Appendices

       A. Scope and Methodology                                                11
             Prior Coverage                                                    13
       B. Glossary of Technical Terms                                          14
Introduction
Objectives
The overall objective was to evaluate the methodology used to develop the U.S. Special
Operations Command (SOCOM) military equipment baseline valuation as of
September 30, 2006. Specifically, we assessed the reliability of the Property and
Equipment Policy Office (P&EPO) and SOCOM’s internal controls over the valuation,
rights and obligations, and completeness of the universe of programs for the military
equipment baseline. Appendix B is a glossary of technical terms used in this report.

Background
The P&EPO requested that DoD Office of Inspector General (OIG) perform procedures
to review the military equipment baseline valuation as of September 30, 2006. Officials
in the P&EPO and DoD OIG agreed that the audit would evaluate the reliability of the
internal controls over the valuation and rights and obligations financial statement
assertions. The objective also included a limited evaluation of the completeness
assertion. Because of previously identified deficiencies over end item quantities, the
P&EPO requested the audit team evaluate only the internal controls over the
completeness of the SOCOM universe of programs. Headquarters, SOCOM expressed
concerns with the DoD OIG conducting an audit because of unresolved issues with the
military equipment baseline. Headquarters, SOCOM documented concerns with the
military equipment baseline in a December 20, 2006, memorandum titled “Request for
Resolution on United States Special Operations Command’s Military Equipment
Valuation Baseline Assertion Issues.” Further, Headquarters, SOCOM identified the
valuation of military equipment as a material weakness in FY 2005 through FY 2007.
This report is the second in the series of reports discussing the internal controls over the
military equipment baseline valuation. This report addresses the P&EPO and SOCOM
internal controls over the SOCOM military equipment baseline.

Military equipment is defined as tangible items that are used in the performance of
military missions, have a minimum cost of $100,000 ($50,000 for vehicles), are not
intended for sale, and have an estimated useful life of 2 years or more. On September 30,
2007, the Department reported on its financial statements that Military Equipment had a
net book value of $346.3 billion, which is 73 percent of DoD General Property, Plant,
and Equipment.

Statement of Federal Financial Accounting Standards
Statement of Federal Financial Accounting Standards (SFFAS) No. 23, “Eliminating the
Category National Defense Property, Plant, and Equipment,” May 2003, was effective
after September 30, 2002. The Standard required that the initial capitalization of military
equipment assets, including any major improvements and modifications, be based on
historical cost in accordance with the asset recognition provisions of SFFAS No. 6,
“Accounting for Property, Plant, and Equipment,” June 1996, as amended.



                                              1
SFFAS No. 23 recognizes that determining historical cost may not be practical for items
acquired many years before the date the Standard became effective. Accordingly, the
Standard provides that if obtaining historical cost is not practical, estimated historical
cost may be used. Other information; such as budget, appropriation, or engineering
documents and other reports reflecting amounts expended; may be used as the basis for
historical costs.

DoD Financial Management Regulation
The DoD Financial Management Regulation, volume 4, chapter 6, “Property, Plant, and
Equipment,” July 2006, requires that the organization capitalize the purchase cost and
other costs necessary to bring the asset to an operable condition when acquiring a General
Property, Plant, and Equipment asset. The Regulation also requires that the organization
calculate and accumulate depreciation expenses using the straight-line method based on
the recorded cost, less salvage value, and divided equally among accounting periods
during the asset’s useful life. The event that triggers the calculation of depreciation is the
date of receipt shown on the asset receiving document or the date the asset is installed
and placed in service (regardless of whether it is actually used). For purposes of
computing depreciation, military equipment and real property assets (for example,
buildings, facilities, and structures) do not have salvage values.

Review of Internal Controls
We determined that material internal control weaknesses over the valuation, rights and
obligations, and completeness of the universe of programs for SOCOM military
equipment existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. DoD Instruction 5010.40 states that
internal controls are the organization, policies, and procedures that help program and
financial managers to achieve results and safeguard the integrity of their programs.
Although we identified material weaknesses, we are making no recommendations in this
report because the final report will summarize all findings in the series and recommend
corrective actions, as appropriate. We will provide a copy of this report and the final
report to the senior official responsible for internal controls in the P&EPO and
Headquarters, SOCOM.




                                              2
Internal Controls Over the Valuation, Rights
and Obligations, and Completeness of the
Universe of Programs
The P&EPO and SOCOM internal controls over the valuation, rights and obligations, and
completeness of the universe of programs for the SOCOM military equipment baseline
were not effective. Specifically, the internal controls did not ensure that the SOCOM
military equipment baseline included:
     •   values based on proper documentation and appropriate methodologies,
     •   capitalization dates reported in accordance with supporting documentation,
     •   waivers that were appropriately granted and supported, and
     •   a complete universe of SOCOM military equipment programs.
As a result, SOCOM cannot ensure the accuracy of the military equipment net book value
of $4.5 billion presented in its September 30, 2006, financial statements.

Valuation of Military Equipment Programs
On September 30, 2006, SOCOM reported a universe of 28 military equipment programs
and subprograms, with an acquisition value of $8.5 billion, and a net book value of
$4.5 billion. However, the P&EPO and SOCOM internal controls did not ensure that
valuations were based on appropriate supporting documentation, methodologies, and
useful life estimates. Table 1 lists the military equipment value as of September 30,
2006, for the program valuations reviewed.

                               Table 1. Program Valuations Reviewed
                                            (in millions)
                                                                         Acquisition      Net Book
            Program Name                  Valuation Methodology            Value           Value
Communication Equipment and             Group and Composite 1            $ 653.6         $ 325.0
Electronics
MH-47                                   Average 2                           753.0            714.8
MTPS                                    Group and Composite                 170.1            164.5
SAHRV Modifications                     Average                               1.3              0.9
SOF Combatant Craft                     Group and Composite                  94.9             41.1
SOF C-130                               Average                           2,839.5            508.6
SOF C-130 Modifications                 Average                           1,221.8            783.2
 Total                                                                   $5,734.2         $2,538.1

MH               Multi-Mission Helicopter
MTPS             Mission Training and Planning Systems
SAHRV            Semi-Autonomous Hydrographic Reconnaissance Vehicle
SOF              Special Operations Forces

1
  The P&EPO used the Group and Composite Methodology when program data were not available at the
  end item level. Expenditure transactions were accumulated by year and treated as a single asset.
2
  The average cost methodology is defined as calculating an estimated average cost by summing program
  budgetary data and dividing it by the quantity of end items procured.


                                                   3
Types of Support
SFFAS No. 23 allows the use of estimated historical costs. The P&EPO used budgetary
documents and system data to support the SFFAS No. 23 requirement to capitalize
military equipment based on historical cost. However, the P&EPO did not always use the
best available information.

Budgetary Documents
The P&EPO generally used budgetary documents to support the values of military
equipment acquired before October 1, 2002. Although SFFAS No. 23 provides for the
use of budgetary documents, the P&EPO did not always ensure that it used the best
available budgetary document to support acquisition values. For example, the P&EPO
used a February 2000 Budget Item Justification Sheet to support the SOF Combatant
Craft estimated expenditures of $18.6 million for FY 2000. However, the February 2002
Budget Item Justification Sheet identified that estimated expenditures for FY 2000 had
decreased to $12.4 million. As a result, the value assigned to this program was overstated
by $6.2 million.

System Data
The P&EPO used data from financial systems to support the historical cost of the
SOCOM military equipment programs. However, using data from those systems did not
ensure that the resulting valuations were accurate and consistent with primary source
documents. The Government Accountability Office and DoD OIG have issued reports
that question the accuracy of DoD financial system data. In addition, the FY 2007 DoD
Agency Financial Report included the following statement:

           Many of the Department’s legacy systems do not comply with the wide range of
           requirements for systems compliance and, therefore, do not provide the necessary
           assurances to rely on information contained in either the legacy (source) system or those
           systems that were fed information from the legacy systems.

Consequently, accepting financial system data without further verification compromises
the reliability of SOCOM’s program valuations.

Support for Valuations
The P&EPO did not ensure that the SOF C-130, SOF C-130 Modifications, MH-47, and
MTPS 3 Programs were valued based on the appropriate supporting documents.

SOF C-130
The P&EPO included $1,175 million in budgetary expenditures in the SOF C-130
valuation. However, the P&EPO provided documentation that indicated it should have
reported $949 million of the budgetary expenditures under the SOF C-130 Modifications
Program. The P&EPO provided no support for the remaining $226 million. Additionally,
3
    On January 24, 2007, the Director, Acquisition Resources and Analysis changed the definition of military
    equipment to exclude training systems. Therefore, the P&EPO and SOCOM granted the MTPS program
    a waiver on March 7, 2007. However, we have included it in this report as an example of a potential
    systemic issue.


                                                       4
the P&EPO incorrectly calculated the average cost for the SOF C-130 Program.
Specifically, supporting documentation indicated that the average cost computation:
       •    included a miscalculation that resulted in a $117 million error in the total
            estimated cost,
       •    excluded an EC-130J 4 end item in the calculation, and
       •    used an overstated acquisition cost for the C-130J 5 to calculate the residual value
            of the EC-130J.

SOF C-130 Modifications
The P&EPO recorded an unsupported manual adjustment valued at $407 million. In
addition, as stated previously, the SOF C-130 Modifications Program excluded
$949 million in budgetary expenditures. As a result, the P&EPO understated the value
reported for the SOF C-130 Modifications Program by $542 million.

MH-47
The P&EPO recorded an unsupported manual adjustment valued at $305 million.
However, the P&EPO provided documentation that indicated it should have reported
$269 million in additional budgetary expenditures. Additionally, the P&EPO included
$146 million in duplicate expenditure transactions in the valuation. As a result, the
P&EPO overstated the value reported for the MH-47 Program by $182 million.

MTPS
The P&EPO overstated the value reported for the MTPS Program by $2 million. It
recorded expenditures for FY 2002 that did not correspond to the supporting
documentation.

Group and Composite Methodology
Although SFFAS No. 23 allows the use of the Group and Composite Methodology, the
methodology the P&EPO used did not always provide reliable values for group and
composite expenditures. If expenditures could be applied to an end item, the P&EPO
would capitalize expenditures at the asset level. Otherwise, in accordance with the Group
and Composite Methodology the P&EPO would capitalize the expenditures for each
fiscal year as a single asset. The use of this methodology increased the likelihood that
expenditures may have been capitalized in a different period than the asset was actually
placed into service. As a result, expenditures may be inaccurately reported on the
financial statement.

Specifically, the methodology that the P&EPO used did not ensure that valuations were
accurate for the MTPS and the Communication Equipment and Electronics Programs.




4
    SOF C-130 valuation should include all SOCOM variants of the C-130, such as the EC-130J.
5
    The Air Force C-130J program was reviewed during the audit of Internal Controls Over the Air Force
    Military Equipment Baseline Valuation Effort.


                                                     5
MTPS
The P&EPO could not provide support for the fiscal years used to calculate the net book
value for the MTPS Program. It used a budgetary document that identified a cumulative
amount of $25.1 million for years before FY 1998. Then, using FY 2006 as the base year
and a 15-year useful life estimate, the P&EPO determined that expenditures might have
begun in FY 1992. It evenly allocated the $25.1 million over FY 1992 through FY 1997.
However, the MTPS Program may not have incurred those costs in FY 1992 through
FY 1997 or in identical amounts.

Additionally, the Group and Composite Methodology required capitalizing the
expenditures for each fiscal year as a single asset. However, the P&EPO used a single
capitalization date of September 30, 2006, for all acquisition costs even though its
supporting documentation indicated 99 percent of the costs were incurred before
FY 2006. The MTPS Program net book value only recorded 6 months of depreciation,
even though expenditures may have occurred as far back as FY 1992. As a result, the
MTPS accumulated depreciation and net book value may be understated or overstated.

Communication Equipment and Electronics
For group and composite programs, the P&EPO generally applied a weighted average
useful life estimate that did not represent the entire program. For example, the
Communication Equipment and Electronics Program valuation included 13 subprograms.
The P&EPO and SOCOM granted waivers 6 for nine of those subprograms that did not
meet the criteria for valuation. Using the weighted average of the remaining four
subprograms that met the criteria for valuation, SOCOM calculated an estimated useful
life of 7.65 years. However, system limitations required the P&EPO to report the value
of all group and composite subprograms, even if they did not meet the criteria for
valuation. Consequently, the reported value for the Communication Equipment and
Electronics Program included all 13 subprograms, but used an estimated useful life based
on only 4 subprograms. Without including all subprograms, the useful life estimate does
not accurately represent the life of the 13 subprograms included in the program valuation.
As a result, the value of the program was overstated on September 30, 2006.

Contract Closeout Methodology
The P&EPO created a business rule for handling programs that were in contract closeout.
The methodology for this business rule required the P&EPO to:
       •   capitalize material adjustments across all program end items or as a separate item
           (dummy asset) and
       •   expense immaterial adjustments.

The P&EPO did not always properly apply the contract closeout methodology. For the
MH-47 Program, the P&EPO created a dummy asset to report $640 million (85 percent
of the total acquisition costs). The P&EPO created the dummy asset because revisions to


6
    Programs that did not meet the criteria for valuation were granted temporary or permanent waivers.


                                                       6
the MH-47 valuation affected their ability to allocate expenditures across all end items.
The P&EPO should have allocated the $640 million across the program end items.

Useful Life Estimates
SFFAS No. 6 requires that depreciation expenses on General, Property, Plant, and
Equipment be allocated across the asset’s estimated useful life. It further requires that the
estimated useful life consider factors such as physical wear and tear and technological
change or obsolescence.
The P&EPO business rule on modifications, modernizations, upgrades, and
improvements stated that the cost of modifications that enhance or improve the capacity
of an end item, but do not extend its useful life, should be capitalized by:
   •   adding the modification cost to the end item’s net book value and depreciating the
       resulting cost over the remaining useful life of the end item or
   •   capitalizing the modification as a separate item and depreciating the modification
       over the lesser of the life of the modification or the remaining useful life of the
       end item.

The P&EPO did not always properly apply the business rule. For the SAHRV
Modification Program, the SOCOM Program Office useful life memorandum stated that
the modification did not extend the useful life, and that the effective life of the
modification was equal to the remaining useful life of the SAHRV parent program. In
accordance with its business rule, the P&EPO should have depreciated the resulting cost
of the modification over the remaining useful life of each end item. However, the
P&EPO calculated the SAHRV Modification Program baseline valuation based on a
useful life estimate of 6 years. As a result, the net book value may be overstated.

Rights and Obligations
SFFAS No. 6 states that property, plant, and equipment should be recognized when the
title passes to the acquiring entity or when the property, plant, and equipment item was
delivered to the entity or an agent of the entity. Constructed property, plant, and
equipment should be recorded as work in process until it is placed in service, at which
time the balance should be transferred to General Property, Plant, and Equipment.
Additionally, the P&EPO business rule on the capitalization date stated that the date in
the DD-250, Material Inspection and Receiving Report, block 22 “Receiver’s Use,”
would be used to establish the end item acquisition date.

The Group and Composite Methodology the P&EPO used did not allow for the testing of
the rights and obligations assertion. The Group and Composite Methodology reported
expenditures by fiscal year as a single asset, rather than reporting expenditures by end
item. Further, SOCOM explained that it had only compiled the rights and obligations
documentation for the group and composite subprograms that met the criteria for valuing
military equipment. However, the value reported for some group and composite
programs included assets that did not meet the criteria for valuing military equipment.




                                             7
To test the rights and obligations assertion, we conducted a limited review of a sample of
average cost programs. SOCOM provided documentation to support the capitalization
date for a judgmental sample of 22 end items. However, the P&EPO and SOCOM
internal controls did not ensure that the baseline accurately reported the capitalization
date for seven of those end items. The variance between the supporting documentation
and the date reported in the baseline ranged from 1 to 43 days. Errors that crossed fiscal
years may have a financial impact on the values reported in the baseline. For example,
for the MH-47 Program, end item number 9200470, the Capital Asset Management
System-Military Equipment (CAMS-ME) reported a capitalization date of September 30,
1994; however, the supporting documentation identified a capitalization date of
October 7, 1994. Because the variance between CAMS-ME and the supporting
documentation crossed fiscal years, the net book value may have been overstated for the
MH-47 Program. Table 2 identifies the specific sampled end items that SOCOM did not
correctly report in the baseline.

                          Table 2. Capitalization Date Errors

  Program Name              End Item #               Variance              Crosses FY
MK V SOC                       953                     1 day                   No
ASDS                      Not Applicable              3 days                   No
MH-47                         2160                    3 days                   No
MH-47                        9200470                  7 days                  Yes
MH-47                        503760                  14 days                   No
SOF C-130                  6300009817                43 days                   No
SOF C-130                   100001935                 1 day                    No

ASDS           Advanced SEAL Delivery System
MK V SOC       Mark V Special Operations Craft

Completeness of the Universe of Programs
The P&EPO provided a universe that included 50 programs and subprograms for
SOCOM. The P&EPO valued 28 of those 50 programs and subprograms, and the
P&EPO and SOCOM granted waivers for the remaining 22 programs and subprograms
that did not meet the criteria for valuation. However, the internal controls did not ensure
that the SOCOM military equipment baseline included:
   •   properly prepared and supported waivers and
   •   all appropriate programs in the universe.

Waivers
The internal controls over program completeness did not ensure that SOCOM and the
P&EPO appropriately granted and supported waivers for 8 of the 22 programs and
subprograms. Specifically, the P&EPO and SOCOM inappropriately granted waivers for
two programs: the Forward Area Manifold Cart and Raven Unmanned Aircraft System.
The P&EPO should have prepared valuations for the programs.




                                                 8
Forward Area Manifold Cart
The P&EPO and SOCOM granted the Forward Area Manifold Cart Program an “Other”
waiver. The Forward Area Manifold Cart Program is SOCOM military equipment. The
P&EPO and SOCOM granted a waiver to avoid duplicate reporting of the Forward Area
Manifold Cart Program because the Air Force reports the program as general equipment.

Raven Unmanned Aircraft System
The P&EPO and SOCOM granted the Raven Unmanned Aircraft System a “Price”
waiver. Each Raven Unmanned Aircraft System is composed of three aircraft systems,
one ground control unit, one remote video terminal, and a field repair kit. The P&EPO
and SOCOM granted the waiver because each component of the program was below the
$100,000 military equipment capitalization threshold. However, the P&EPO position
paper on “Componentization” defines the combination of distinguishable parts as a
functional unit. The position paper states that the Department should generally capitalize
the full cost of a functional unit. Further, it states that Military Department management
may capitalize subparts of functional units as components when:
    • the subpart is acquired through a separate acquisition program,
    • the estimated cost of the subpart is significant in relation to the estimated total
         cost of the end item, and
    • the estimated useful life of the subpart differs significantly from the estimated
         useful life of the end item.

SOCOM acquired the Raven Unmanned Aircraft System as a program, with a unit price
of $168,000, which is over the military equipment capitalization threshold. As a result,
the P&EPO should have prepared a valuation for the Raven Unmanned Aircraft System.

In addition, the P&EPO did not include adequate documentation to allow an independent
assessment of the waivers for six programs: Collateral Equipment, Pointer, Special
Operations Forces Laser Marker, Integrated Survey Program, Rucksack Portable
Unmanned Aircraft System, and Neptune. SOCOM provided us with additional
documentation to clarify and support the granted waivers. However, the P&EPO should
have ensured that proper documentation was available before determining that the
waivers were appropriate.

Universe of SOCOM Programs
The SOCOM program universe did not include 86 programs. The Marine Corps Forces
Special Operations Command became a Component of SOCOM in February 2006.
However, the SOCOM baseline program universe did not report the 84 Marine Corps
Forces Special Operations Command programs because it only reported programs
procured with SOCOM Major Force Program-11 funds. As noted in the December 20,
2006, memorandum, the SOCOM military equipment baseline did not comply with
preponderance of use requirements. Instead, the P&EPO reported those programs as part
of the Marine Corps baseline universe. For the 84 Marine Corps Forces Special
Operations Command programs, the Marine Corps granted waivers for 81 programs, and
the P&EPO valued 3 programs at approximately $40 million.



                                            9
The baseline program universe also did not include a waiver or valuation to support two
SOCOM programs. According to the Unmanned Aerial Vehicles Program Office, the
universe should have included the Medium Altitude Long Endurance Tactical, valued at
approximately $6 million, and the Aqua Puma program, valued at approximately
$3.5 million.

Conclusion
The P&EPO and SOCOM internal controls over valuation, rights and obligations, and
completeness of the universe of programs for the $4.5 billion presented in the
September 30, 2006, financial statements did not result in reasonable estimates of the
historical cost of military equipment. Specifically, the P&EPO and SOCOM procedures
and controls did not ensure that the SOCOM military equipment program valuations were
appropriate and supportable. The procedures and controls prevent SOCOM from having
assurance that the General Property, Plant, and Equipment balance and disclosures
concerning military equipment in its financial statements are reported in accordance with
generally accepted accounting principles. Until the identified internal control
deficiencies are corrected, SOCOM risks that a material misstatement in its financial
statements could occur and not be detected. Consequently, SOCOM will not be able to
obtain a cost-effective audit of its financial statements or an individual line item, such as
General Property, Plant, and Equipment, until they implement effective internal controls.




                                             10
Appendix A. Scope and Methodology
We conducted this financial-related audit from May 2007 through April 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The P&EPO requested that the DoD OIG conduct an audit to assess the reliability of the
internal controls over valuation, rights and obligations, and completeness of the universe
of programs for SOCOM’s military equipment baseline. Headquarters, SOCOM
identified concerns with conducting an audit on the military equipment baseline because
of outstanding issues, which SOCOM discusses in the December 20, 2006, memorandum
titled “Request for Resolution on United States Special Operations Command’s Military
Equipment Valuation Baseline Assertion Issues.” The memorandum identified concerns
that the military equipment baseline did not comply with preponderant use requirements
and that the baseline excluded classified programs. * The memorandum also stated that
SOCOM could not assert to the accuracy of military equipment valuation until the
issuance of improved guidance for group and composite and modification programs and
accreditation of CAMS-ME.

The P&EPO had SOCOM attest to the completeness of the FY 2006 military equipment
universe and the program valuation data. Based on SOCOM’s attestation, the P&EPO
adjustments to the baseline had a $1.5 billion net change in the first quarter FY 2007
financial statements acquisition value.

We performed our review at the P&EPO and Headquarters, SOCOM in Tampa, Florida.
We analyzed and reviewed supporting documentation to assess the internal controls over
the military equipment baseline valuation effort. The SOCOM universe included
50 programs and subprograms. The P&EPO valued 28 of those 50 programs and
subprograms, and the P&EPO and SOCOM waived the remaining 22. As of
September 30, 2006, the 28 military equipment programs and subprograms had an
acquisition value of $8.5 billion, and a net book value of $4.5 billion. The Quantitative
Methods Directorate generated a probability proportional to size sample of 10 programs
that had a net book value of approximately $3.4 billion. After reviewing the preliminary
documentation to support the valuation, rights and obligations, and completeness of the
universe of programs, we determined that the internal controls over military equipment
were not effective. As a result, we judgmentally selected a sample of nine programs to
conduct a limited internal control review over the valuations, rights and obligations, or
both. The nine programs represented $2.9 billion of the $4.5 billion reported as SOCOM
military equipment in FY 2006. Because we identified internal control weaknesses that

*
    The Special Access Programs Office, Acquisition, Technology, and Logistics will conduct the valuations
    for classified military equipment programs.


                                                     11
substantiated Headquarters, SOCOM’s concerns with its military equipment baseline, we
did not complete all planned audit steps. The table shows the programs that were used to
review the internal controls over valuations, rights and obligations, or both.

                                      Program Sample
                                        (in millions)

                                          Valuation          Acquisition
Program Name                             Methodology           Value         Net Book Value
ASDS                                       Average            $415.1          $367.1
Communication Equipment and               Group and            653.6           325.0
Electronics                               Composite
MH-47                                      Average             753.0            714.8
MK V SOC                                   Average             132.5             49.5
MTPS                                      Group and            170.1            164.5
                                          Composite
SAHRV Modifications                        Average               1.3               0.9
SOF Combatant Craft                       Group and             94.9              41.1
                                          Composite
SOF C-130                                  Average           2,839.5            508.6
SOF C-130 Modifications                    Average           1,221.8            783.2
 Total                                                      $6,281.8         $2,954.7


Use of Computer-Processed Data
To achieve the audit objective, the P&EPO and SOCOM provided computer-processed
data extracted from numerous DoD financial systems to evaluate program valuations.
These systems included the General Accounting and Finance System-Rehost, the
Standard Accounting and Reporting System, the Standard Operation and Maintenance
Army Research and Development System, the SOCOM Financial Information System,
and CAMS-ME. We did not perform a reliability assessment of the computer-processed
data. Not evaluating the controls did not affect the results of the audit because our audit
was over the internal controls over the SOCOM military equipment baseline valuation
effort.

Use of Technical Assistance
The Quantitative Methods Directorate of the DoD OIG provided assistance for the audit.




                                            12
Prior Coverage
During the last 5 years, the DoD IG has issued two reports addressing the SOCOM
military equipment baseline. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.


DoD IG
DoD IG Report No. D-2005-114, “Report on Development of the DoD Baseline for
Military Equipment,” September 30, 2005

DoD IG Report No. D-2005-112, “Report on the Review of the Development of the DoD
Baseline for Military Equipment,” September 30, 2005




                                         13
Appendix B. Glossary of Technical Terms
Average Cost Methodology. The average cost methodology calculates asset values by
summing program budgetary data and dividing it by the quantity of items procured to
yield an estimated average cost per end item at the program level.

CAMS-ME. CAMS-ME is the information technology system that was developed to
maintain and update military equipment valuation data. CAMS-ME supports the DoD
Enterprise Transition Plan.

Capitalization Criteria. All General Property, Plant, and Equipment designated as
military equipment and meeting certain criteria must be capitalized. The criteria are:
(1) has useful life of 2 or more years, (2) is not intended for sale, and (3) exceeds
capitalization threshold (in DoD, that threshold is $100,000 or $50,000 for self-propelled
vehicles).

End Item. Final combinations of component parts or materials that are ready for its
intended use (for example, ship, tank, aircraft, and mobile machine shop).

Group and Composite Methodology. The Group and Composite Methodology was
used when program data were not available at the end item level. The Group and
Composite Methodology was applied when: some of the assets being acquired had a unit
cost in excess of the capitalization threshold; costs could not be directly associated with
specific assets; and no single item was significant enough to serve as a surrogate for the
entire program. Expenditure transactions were accumulated by year at the program level
and treated as a single asset.

Military Equipment. * Military equipment consists of tangible assets that meet the
following criteria: (1) have an estimated useful life of 2 or more years, (2) are not
intended for sale, and (3) are intended to be used or available for use in the performance
of military missions to include equipment used in training.

Waiver. Programs that did not meet the criteria for valuation were granted temporary or
permanent waivers. The P&EPO granted temporary waivers to programs that were using
research and development funding but were expected to receive procurement funding in
the future. Permanent waivers included:
       •   Classified Waiver: Classified programs were not valued.
       •   Deactivated Waiver: Program end items were fully deactivated by June 30, 2006.
       •   Entity Waiver: End items produced will be reported by another entity because of
           funding or preponderance of use requirements.
*
    This definition was applicable during the military equipment baseline valuation effort; however, on
    January 24, 2007, the Director, Acquisition Resources and Analysis changed the definition to exclude
    equipment used in training.



                                                      14
•   Foreign Military Status Waiver: Program is intended for foreign military sales.
•   Net Book Value Waiver: Program is fully depreciated and the net book value is
    zero.
•   Other Waiver: Program is a study program; in perpetual research, development,
    test, and evaluation; or the end item is not considered military equipment.
•   Price Waiver: Program where the cost per end item is less than the capitalization
    threshold of $100,000 ($50,000 for self-propelled vehicles).
•   Real Property Waiver: Program is considered real property according to SFFAS
    No. 6.
•   Software Waiver: Software integrated into weapons systems is capitalized as part
    of the cost of the related military equipment program. Internal use software is
    reported as General Property, Plant, and Equipment.




                                       15
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Alice F. Carey
Barbara A. Sauls
Brian R. McNamara
Lidet K. Negash
Lindsay B. Warner
Shirlenne S. Tsay
Javon A. Johnson
Scott P. Randolph
Megan Chan
Lusk F. Penn
James Hartman
Ann Thompson
